                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                       EXPORT-IMPORT BANK
                                                        of the UNITED STATES




                 EXPORT-IMPORT BANK’S
                    CONTENT POLICY
          Opportunities Exist to Improve
         Controls and Address the Impact
             of Voluntary Reporting




                                                                December 11, 2013
                                                                  OIG-AR-14-01
To:         Fred Hochberg
            Chairman and President

            Michael Cushing
            Acting Chief Operating Officer and Senior Vice President, Resource
            Management

From:       Rebecca Sharek
            Assistant Inspector General for Audits

Subject:    Audit of Export-Import Bank’s Content Policy
            Report No. OIG-AR-14-01

Date:       December 11, 2013

Attached please find the final report of our audit of the Export-Import Bank’s
content policy. The report contains three recommendations for corrective action.
In response to a draft of the report, management concurred with the
recommendations. Management’s response is included as an appendix to the final
report.

We consider management’s proposed actions to be responsive. The
recommendations will be closed upon completion and verification of the proposed
actions.

We appreciate the courtesies and cooperation extended to us during the audit. If
you have questions, please contact me at (202) 565-3169 or
rebecca.sharek@exim.gov.


cc:     C.J. Hall, Executive Vice President and Chief Risk Officer
        Audit Committee
        James Cruse, Senior Vice President, Policy & Planning
        Scott Schloegel, Senior Vice President, Congressional Affairs
        Claudia Slacik, Senior Vice President, Export Finance
        Kenneth Tinsley, Senior Vice President, Credit Management
        Walter Hill, Jr., Vice President, Credit Review & Compliance
        James Mahoney, Jr., Vice President, Engineering & Environment
        Inci Tonguch-Murray, Business Compliance Officer




                  811 Vermont Avenue, NW Washington, D.C. 20571
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


             The Export-Import Bank of the United States (Ex-Im Bank)
             is the official export-credit agency of the United States.
             Ex-Im Bank is an independent, self-sustaining executive
             agency and a wholly-owned U.S. government corporation.
             Ex-Im Bank’s mission is to support jobs in the United States
             by facilitating the export of U.S. goods and services. Ex-Im
             Bank provides competitive export financing and ensures a
             level playing field for U.S. exports in the global
             marketplace.

             The Office of Inspector General, an independent office
             within Ex-Im Bank, was statutorily created in 2002 and
             organized in 2007. The mission of the Ex-Im Bank Office of
             Inspector General is to conduct and supervise audits,
             investigations, inspections, and evaluations related to
             agency programs and operations; provide leadership and
             coordination as well as recommend policies that will
             promote economy, efficiency, and effectiveness in such
             programs and operations; and prevent and detect fraud,
             waste, abuse, and mismanagement.




ACRONYMS
AMD                           Asset Management Division
CRC                           Credit Review and Compliance Division
E&E                           Engineering and Environment Division
EDA                           External Delegated Authority
Ex-Im Bank or the Bank        Export-Import Bank of the United States
FTE                           Full-Time Equivalent
FY                            Fiscal Year
GAO                           Government Accountability Office
IDA                           Individual Delegated Authority
ODQ                           Operations & Data Quality Division
OIG                           Office of Inspector General




                                    AUDIT REPORT OIG-AR-14-01
                                 EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Executive Summary                                    EXPORT-IMPORT BANK’S CONTENT POLICY
                                                     Opportunities Exist to Improve Controls and
                                                     Address the Impact of Voluntary Reporting
                                                     Audit Report OIG-AR-14-01
                                                     December 11, 2013

Why We Did This Audit                          What We Found
The Export-Import Bank of the United           Ex-Im Bank’s content requirements ensure U.S. jobs benefit from Bank
States (Ex-Im Bank or the Bank) provides       programs. Moreover, exported goods and services must meet content
competitive export financing to help U.S.      requirements to be eligible for Ex-Im Bank financing. However, we
businesses sell their goods and services       found that only long-term transactions are subject to procedures that
overseas. In doing so, the Bank                could identify content-related discrepancies. For all other
contributes to the employment of U.S.          transactions, Ex-Im Bank largely relies on exporter self-certifications
workers. Ex-Im Bank’s content policy           and criminal penalty warnings to ensure content requirements are
connects its financing activities to U.S.      met and to deter exporters from making false statements. Several
jobs by limiting the amount of foreign         Ex-Im Bank divisions have opportunities to review content-related
content (foreign labor, materials, and
                                               information; however, none are responsible for implementing control
other production costs) that can benefit
                                               activities such as verifying exporter certifications of content.
from Ex-Im Bank financing. The Bank
relies on U.S. content as a proxy to
                                               Furthermore, the Government Accountability Office (GAO) reported
evidence support for U.S. jobs. In fiscal      that Ex-Im Bank lacks a sound basis for workforce planning and for
year 2012, Ex-Im Bank reported                 determining when such additional control activities might be needed
supporting an estimated 255,000 U.S.           to manage operational risks.
jobs. Over the last 5 years, the Bank has      GAO “Standards for Internal Control in the Federal Government” state
reported supporting more than one              that controls should provide reasonable assurance that the objectives
million U.S. jobs. We initiated an audit to    of the agency are being achieved. Although compliance with Ex-Im
evaluate Ex-Im Bank’s implementation of
                                               Bank’s content requirements is not indicative of a successful or failed
its content policy and assess the Bank’s
                                               business transaction, it is one of the basic requirements for doing
procedures for determining the U.S. and
                                               business with the Bank. Due to the lack of verification efforts and
foreign content of exported goods and
services supported by the Bank.
                                               because we identified concerns regarding exporter certifications of
                                               content, we believe Ex-Im Bank has limited assurance that content
What We Recommended                            requirements are met and, therefore, that (1) the Bank finances only
                                               eligible exports, and (2) its financing activities effectively achieve the
To provide reasonable assurance that
                                               agency’s mission of maintaining or increasing U.S. employment.
content requirements are met and as Ex-
Im Bank considers changes to its content       In addition, Ex-Im Bank revised its content policy in 2001. In
policy, the Bank should (1) implement          exchange for allowing flexibility in content calculations, the Bank
procedures to verify exporter self-            requested exporters to submit detailed Content Reports. Ex-Im Bank
certifications for a representative sample     sought such information to allow the Bank, Congress, and the
of transactions each fiscal year;              Department of Labor to analyze the impact of the policy changes,
(2) resolve with the Board of Directors        develop specific content trends, and conduct follow-up analyses.
the outstanding requirement to provide         However, because Ex-Im Bank made submission of Content Reports
annual reports based on Content Reports        voluntary, the Bank has not received any statistically valid data to
and foreign content review procedures;         date. Therefore, Ex-Im Bank did not collect information described as
and (3) establish mechanisms to obtain
                                               “an integral part of the ongoing process of crafting a content policy,”
specific, measurable, and reliable data to
                                               and was unable to comply with its Board of Directors’ requirements
analyze the impact of any content-
related procedural changes approved by
                                               regarding the analysis and reporting of detailed content trend
the Board of Directors by the end 2013.        information. As a result of a review required by the Export-Import
Management concurred with the                  Bank Reauthorization Act of 2012, Ex-Im Bank is considering
recommendations, which will be closed          additional changes to its content policy.
upon completion and verification of            For additional information, contact the Office of the Inspector General at
corrective action.                             (202) 565-3908 or visit www.exim.gov/oig.

                                              AUDIT REPORT OIG-AR-14-01
                                                           i
                     EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




 TABLE OF CONTENTS


INTRODUCTION
  Background __________________________________________________1
  Objectives ____________________________________________________5

RESULTS
  Reliance on Exporter Self-Certifications Limits Ex-Im Bank’s Assurance
      over Content _______________________________________________6
      Recommendations, Management’s Response, and Evaluation of
      Management’s Response ____________________________________11
  Ex-Im Bank Did Not Collect Information Needed to Analyze the Impact
     of Changes to Its Content Policy ______________________________12
     Recommendations, Management’s Response, and Evaluation of
     Management’s Response ____________________________________15

APPENDIX A
  Scope and Methodology ________________________________________17
  Review of Internal Controls _____________________________________18
  Federal Laws, Regulations, Policies, and Guidance ___________________18
  Prior Coverage _______________________________________________19

APPENDIX B
  Ex-Im Bank’s Short-, Medium-, and Long-term Content Policy and
     Examples of Financing Calculations Based on Content _____________20

APPENDIX C
  2001 Proposal to Modify Ex-Im Bank’s Content Policy ________________23

APPENDIX D
  Board of Directors’ Approval of 2001 Proposal to Modify Ex-Im Bank’s
     Content Policy _____________________________________________30

APPENDIX E
  Review of the Effects of 2001 Changes to Ex-Im Bank’s Content Policy ___31

APPENDIX F
  Management Comments _______________________________________38


                                AUDIT REPORT OIG-AR-14-01
                                            ii
                                EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



                                                                                      INTRODUCTION


Background
  The Export-Import Bank of the United States (Ex-Im Bank or the Bank) is the nation’s
  official export credit agency and operates under the authority of the Export-Import Bank
  Act of 1945, as amended. According to the Act, “the objectives and purposes of the Bank
  shall be to aid in financing and to facilitate exports of goods and services . . . and in doing so
  to contribute to the employment of United States workers.” To achieve its mission and
  contribute to maintaining or increasing U.S. jobs, Ex-Im Bank provides U.S. exporters and
  their foreign customers competitive export
                                                             Ex-Im Bank provides medium- and long-term
  financing in the form of direct loans, loan
                                                             fixed-rate direct loans to foreign buyers of
  guarantees, working capital guarantees, and
                                                             U.S. goods and services. The Bank’s medium-
  export credit insurance.                                   and long-term loan guarantees cover the
                                                                    repayment risk on a foreign buyer’s debt
  For example, in June 2013, Ex-Im Bank approved
                                                         obligations incurred in the purchase of U.S.
  a $20 million loan guarantee to facilitate the sale    exports.      Ex-Im Bank’s working capital
  and export of used equipment by a small                guarantees provide repayment guarantees to
  business in the United States to a customer in         lenders (primarily commercial banks) on
  Africa. The transaction will support                   secured, short-term working capital loans made
  approximately 100 U.S. small-business jobs,            to qualified exporters. Finally, the Bank issues
  according to Ex-Im Bank estimates derived from         medium- and short-term export credit
  Departments of Commerce and Labor data and             insurance policies to U.S. exporters, thereby
  methodology. In addition, for fiscal year (FY)
                 1                                       providing credit to foreign buyers of exporters’
  2012, Ex-Im Bank authorized 3,790 loan,                products.
  guarantee, and insurance transactions totaling
  $35.8 billion in export financing, which supported an estimated 255,000 American jobs at
  more than 3,400 U.S. companies.2 Over the last 5 years, the Bank estimates that its export
  financing helped support more than one million U.S. jobs (see Figure 1).

  Ex-Im Bank’s Content Policy. According to Ex-Im Bank, its content policy is “the proxy to
  connect its activities to jobs, and the most fitting policy tool to promote U.S. employment.”3
  “Content” refers to the country of origin of the goods and services that make up an export
  contract. Ex-Im Bank-supported transactions include U.S. content (that is, U.S.-originated

  1 To calculate the number of U.S. jobs associated with the exports it helps finance, Ex-Im Bank first determines
  the industry associated with each authorized transaction. Then the Bank calculates the total value of exports
  it supports for each industry. Ex-Im Bank implements these first two steps using its own data. Thirdly, Ex-Im
  Bank multiplies the export value for each industry by the Bureau of Labor Statistics ratio of jobs needed to
  support $1 million in exports in that industry – a figure known as the “jobs ratio.” Finally, Ex-Im Bank
  aggregates across all industries to produce an overall estimate of jobs supported for each year.
  2Ex-Im Bank’s 2012 annual report. According to the report, Ex-Im Bank authorized 3,796 transactions in FY
  2012; however, we determined that 6 transactions were not funded.
  3   “Export-Import Bank of the United States: Content Review 2013,” May 30, 2013.


                                           AUDIT REPORT OIG-AR-14-01
                                                         1
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


goods and services), foreign content (that is, third country originated goods and services),
and local content (that is, goods and services that originate in the foreign buyer’s country).
The U.S. content in Ex-Im Bank-supported exports helps ensure that U.S. jobs benefit from
Ex-Im Bank financing. Because foreign and local content represent costs that do not
directly benefit the U.S. economy or U.S. employment, Ex-Im Bank developed policies and
                                                      procedures that limit the extent to
  Figure 1. Estimated Jobs Supported which such content is covered by its
                                                      financing. Specifically, the Bank’s
           by Ex-Im Bank Financing                    content policy includes criteria for
                    FY 2008 - 2012                    identifying exports eligible for Ex-Im
                                                      Bank support based on the amount of
                                                      foreign labor, materials, and overhead
                                                      included in the production of the
                                                      exported good or service. Eligibility
                                                      criteria and the amount of financing
                                                      Ex-Im Bank will provide based on
                                                      content depends on the terms of the
                                                      financing requested and, for short-term
                                                      transactions, whether the exporter is a
                                                      small business. Appendix B provides
                                                      Ex-Im Bank’s content policy for short-,
                                                      medium-, and long-term transactions,
                                                      and describes how Ex-Im Bank
   Source: Ex-Im Bank 2012 annual report.             financing is calculated based on the
                                                      content in each type of transaction.

Ex-Im Bank’s content policy is self-imposed and can be modified by the Bank’s Board of
Directors. The policy establishes (1) the level of financing available depending on the
content of exported goods and services and terms of the transaction, and (2) procedures
for exporters to report content information to Ex-Im Bank and for the Bank to assess the
reasonableness of such information. When applying for financing, exporters complete an
Exporter's Certificate to certify the amount of foreign and domestic content included in the
transaction. The Certificate warns exporters of the penalties for making false statements.
For medium- and long-term transactions, exporters are required to report material
changes in the amount of foreign content that occur during the life of the transaction so
that Ex-Im Bank can adjust the financing provided and ensure only the value of U.S. content
is supported.4

Key Changes to Ex-Im’s Bank Content Policy. Initially, Ex-Im Bank’s content policy
required 100 percent U.S. content for medium- and long-term direct loans. In 1960, after
creating a short-term insurance program, the Bank established content threshholds for
short-term transactions. In 1987, Ex-Im Bank responded to exporter concerns by revising

4 A “material change” occurs if (a) the U.S. content percentage has decreased by more than 5 percent (as
compared to the U.S. content percentage reported on the initial Exporter’s Certificate) and (b) aggregate
foreign content is over 20 percent (i.e., the new U.S. content percentage is less than 80 percent).


                                        AUDIT REPORT OIG-AR-14-01
                                                      2
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


the content policy for medium- and long-term transactions. Instead of financing only
85 percent of the U.S. content of an export, the Bank agreed to provide financing equal to
the lesser of (1) 85 percent of the value of all eligible goods and services in the export
contract price, or (2) 100 percent of the U.S. content.

Ex-Im Bank revised its medium- and long-term content policy again in January 2001. In
response to exporter concerns that the Bank’s procedures lacked sufficient flexibility to
meet competitive pressures from foreign export credit agencies and commercial demands
facing the U.S. export community, Ex-Im Bank staff proposed additional changes to the
medium- and long-term content policy.5

Staff’s proposal (included in Appendix C) had two components: (1) abandoning the item-
by-item approach to calculating eligible content in favor of allowing exporters to aggregate
the content of all items within a supply contract; and (2) in exchange for this flexibility,
establishing reporting procedures to provide Ex-Im Bank with greater detail on the nature
of foreign and domestic content supported by its
medium- and long-term transactions.                     “At [Ex-Im Bank], creating and supporting jobs
Specifically, Ex-Im Bank staff proposed that,           by exporting American-made goods and
when an application for financing is made,              services is our mission and our passion. As we
exporters would be requested to submit a                close the books on another year, the ‘Made in
Content Report detailing the goods and services         the USA’ brand has never been stronger,
                                                        fueled by the strength of American exporters
that benefit from the financing. Exporters would
                                                        and the work President Obama has done to
also be requested to confirm information
                                                        grow our economy. When businesses large
provided in the Content Report no later than
                                                        and small sell their products abroad, the U.S.
three months after final disbursement of                economy grows and new opportunities are
approved financing. Staff recommending the              created here at home.”
changes reasoned that, although aggregating
content within a supply contract would make                                      --Chairman’s Message,
predominantly and wholly foreign goods and                               Ex-Im Bank  2012 annual report
services eligible for inclusion in Ex-Im Bank
financing packages, small changes in foreign content would also become acceptable.
Therefore, exporters would be able to operate “in the real world” and generate desired
improvements in efficiency and competitiveness. In addition, with the information from
the Content Reports, staff planned to analyze the impact of the policy changes and perform
case-specific follow-up for future decision-making. The recommended changes required a
host of modifications to Ex-Im Bank’s processes and procedures.

As shown in Appendix D, Ex-Im Bank’s Board of Directors approved the proposed content
policy changes on January 11, 2001. However, the Board also required Bank management
to (1) submit to the Board of Directors and the Bank’s Advisory Committee an Annual
Report on Content Trends compiled using information from the new exporter Content

5 In addition to directing Ex-Im Bank to maintain or increase employment of U.S. workers through export
financing, Congress directs Ex-Im Bank [through 12 U.S.C. 635 Section 2(b)1(A)] to provide export financing
“at rates and on terms and other conditions which are fully competitive with the Government-supported rates
and terms and other conditions available for the financing of exports of goods and services from the principal
countries whose exporters compete with [U.S.] exporters. . . .”


                                        AUDIT REPORT OIG-AR-14-01
                                                      3
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Reports; and (2) review the impact of the policy changes and report back on the results no
later than January 1, 2003. Management did not provide the required report until
October 5, 2007, as shown in Appendix E.

Mandatory Review of Content Policy. As part of Ex-Im Bank’s 2012 reauthorization,
Congress required the Bank to review its domestic content policy for medium- and long-
term transactions.6 The purpose of the review was to “examine and evaluate the
effectiveness of the Bank’s policy in maintaining and creating jobs in the U.S.; and in
contributing to a stronger national economy through the export of goods and services.” In
conducting the review, Ex-Im Bank was directed to consider the following factors:

      1. whether the content policy accurately captures the costs of U.S. production of goods
         and services and the effect of the policy on the maintenance and creation of U.S.
         jobs;

      2. the ability of the Bank to provide financing competitive with that provided by
         foreign export credit agencies;

      3. the effects of the policy on the U.S. manufacturing and service workforce;

      4. any relevant recommendations from members of the Bank’s Advisory Committee;
         and

      5. the effect that changes to the Bank’s domestic content requirements would have in
         providing companies an incentive to create and maintain operations in the U.S. and
         increase U.S. jobs.

In response, Ex-Im Bank conducted a series of meetings with stakeholders including large
exporters of goods and services, manufacturers of intellectual property, small businesses,
and labor organizations. The Bank also solicited input through a Federal Register notice
and engaged Ex-Im Bank’s Advisory Committee. On May 30, 2013, the Bank provided
Congress the results of its review, reporting that stakeholders held many opposing views
and the Advisory Committee recommended a measured approach to any changes in
content ratios.7 Specifically, the Advisory Committee recommended that any policy
changes should rely on “empirical evidence,” which the Bank found difficult to obtain.
However, Ex-Im Bank reported that the review process revealed opportunities to
streamline policies and programs and add clarity to the content policy. In its report to
Congress and at a subsequent Board meeting held on July 9, 2013, Ex-Im Bank management
reported plans to consider:

      1. streamlining and broadening the use of Annual Average Content Certification
         procedures in order to ease the amount of time required to report on content;


6Section 15 of the Export-Import Bank Reauthorization Act of 2012 [Public Law 112-122, 126 Stat. 350
(2012)].
7   “Export-Import Bank of the United States: Content Review 2013,” May 30, 2013.


                                         AUDIT REPORT OIG-AR-14-01
                                                       4
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


      2. clarifying and codifying Ex-Im Bank’s services policy to more actively engage U.S.
         services exporters; and

      3. utilizing existing co-financing and parallel financing structures to maximize
         exporters access to market niches where jobs reside.

  The Board of Directors intends to vote on these possible policy changes by the end of
  calendar year 2013.

  Prior Concerns. In prior reports, the Office of Inspector General (OIG) identified concerns
  regarding exporter certifications of content and Ex-Im Bank’s review and verification of
  reported information. Specifically, as a result of a prior audit of Ex-Im Bank’s short-term
  insurance program, we reported that the Trade Finance Division authorized a short-term
  insurance policy for scrap metal, even though the application for financing clearly stated
  the exported goods did not meet Ex-Im Bank’s U.S. content requirements.8 The insurance
  policy was valued at $18 million.

  In addition, the OIG’s Semiannual Report to Congress for the period ended March 31, 2012,
  reported a scheme to defraud Ex-Im Bank of $496,869 based, in part, on false
  representations of U.S. content.9 According to court documents, a U.S. company purported
  to be an exporter of U.S. manufactured garbage collection trucks purchased with
  $2.3 million in loans to Peruvian borrowers from a U.S. lending bank. Those loans were
  guaranteed by Ex-Im Bank. According to court records, the company owner submitted
  false bills of lading and other export records purporting to show that loan proceeds had
  been used to purchase and ship U.S. manufactured trucks. However, for one of the loans,
  the company owner instead wired loan proceeds directly to a Peruvian borrower who used
  the money to purchase garbage trucks made in Germany. Subsequently, one of the
  fraudulent loans defaulted and Ex-Im Bank paid a $502,169 claim to the U.S. lending bank
  in accordance with the terms of the guarantee.

Objectives
  Our objectives were to evaluate Ex-Im Bank’s implementation of its content policy and
  assess the Bank’s procedures for determining the U.S. content and eligible foreign content
  included in each transaction supported by the Bank. See Appendix A for details of the
  audit’s scope and methodology; our review of internal controls, Federal laws, regulations,
  policies, and guidance; and a description of prior audit coverage.




  8Ex-Im Bank OIG, “Audit of Export-Import Bank’s Short-Term Insurance Program,” (OIG-AR-12-05,
  September 28, 2012). Available at: http://www.exim.gov/oig/upload/Official-20Final-20Report-20-20Audit-
  20of-20ST-20Ins-20Program-20120928-1.pdf. Accessed on September 6, 2013.
  9Ex-Im Bank OIG, “Semiannual Report to Congress,” (October 1, 2011 to March 31, 2012). Available at:
  http://www.exim.gov/oig/loader.cfm?csModule=security/getfile&pageid=13589. Accessed on
  September 10, 2013.


                                         AUDIT REPORT OIG-AR-14-01
                                                      5
                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                            RESULTS


Reliance on Exporter Self-Certifications Limits Ex-Im Bank’s
Assurance over Content
  Ex-Im Bank relies on U.S. content as a proxy to evidence support for U.S. jobs. Moreover,
  exported goods and services must meet the content requirements to be eligible for Ex-Im
  Bank financing. However, we found that only long-term transactions are subject to
  technical reviews and engineering oversight that could identify content-related
  discrepancies. For all other transactions, Ex-Im Bank largely relies on exporter self-
  certifications of each export’s foreign and domestic content, and criminal penalty warnings
  to deter exporters from making false statements. Several Ex-Im Bank divisions have
  opportunities to review content-related information; however, none are responsible for
  implementing control activities such as verifying exporter certifications of content.
  Furthermore, the Government Accountability Office (GAO) reported that Ex-Im Bank lacks
  a sound basis for workforce planning and for determining when such additional control
  activities might be needed to manage operational risks.10

  GAO “Standards for Internal Control in the Federal Government” state that internal
  controls, including control activities such as verifications, should provide reasonable
  assurance that the objectives of the agency are being achieved.11 Due to the lack of
  verification efforts and because we identified concerns regarding exporter certifications of
  content, we believe Ex-Im Bank has limited assurance that its content requirements are
  met and, therefore, that (1) the Bank finances only the sale and export of eligible goods and
  services, and (2) its financing activities effectively achieve the agency’s mission of
  maintaining or increasing U.S. employment.


  Oversight Procedures Apply to a Small Number of Transactions
  Exported goods and services must meet established content requirements to be eligible for
  Ex-Im Bank financing and ensure that U.S. jobs benefit from Ex-Im Bank programs. In
  addition, the amount of financing Ex-Im Bank provides is based on the percentage of U.S.
  content included in export transactions and self-certified by exporters. Specifically, when
  applying for or assisting foreign buyers in applying for Ex-Im Bank financing, exporters
  complete an Exporter’s Certificate to certify that exported goods and services meet Ex-Im
  Bank’s content requirements.12 Exporters also use Exporter’s Certificates to calculate each

  10“Export-Import Bank: Recent Growth Underscores Need for Continued Improvements in Risk Management”
  (GAO-13-303, March 2013).
  11   “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).
  12Exporter’s Certificate forms include Office of Management and Budget No. 3048-0043, “Form of Exporter’s
  Certificate;” Office of Management and Budget No. 3048-0041, “Exporter’s Certificate for Use with a Short
  Term Export Credit Insurance Policy,” and the “Borrowing Base Certificate.”


                                          AUDIT REPORT OIG-AR-14-01
                                                        6
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


transaction’s U.S. content percentage and, therefore, the amount of financing based on the
amount of the export’s supply contract or purchase order, excluded goods and services,
local costs, and foreign content. Exporter’s Certificates generally contain the following
statement, which warns exporters of the penalties for making false statements:

                  With knowledge that Ex-Im Bank will rely on the certifications and
                  representations made in this Exporter’s Certificate, we agree we are liable
                  for any damages suffered by Ex-Im Bank’s reliance. We understand that
                  these certifications are subject to the penalties for fraud provided in
                  Article 18 U.S.C. Section 1001.

In addition, for medium- and long-term transactions, the forms request that exporters
report any material changes in content that occur during the course of the transaction so
that Ex-Im Bank can adjust the level of financing provided and ensure only the value of U.S.
content is supported.

We found that for the majority of transactions, Ex-Im Bank primarily relies on such
exporter self-certifications and criminal penalty warnings to ensure content requirements
are met and to deter exporters from making false content representations. Specifically, the
Bank only requires the Engineering and Environment Division (E&E) to perform technical
reviews and oversight – procedures which provide some measure of assurance regarding
the reasonableness of exporter certifications of content and may identify content-related
                                             discrepancies – for long-term transactions,
          Figure 2. FY 2012                  which are approved by the Board of Directors.
      Authorizations by Term                         As shown in Figure 2, Ex-Im Bank authorized
                                                     111 long-term transactions in FY 2012.
             111, 3%                                 Therefore, only 3 percent of all transactions
                       162, 4%
                                                     authorized in FY 2012 (or 111 of
                                                     3,790 transactions) were subject to E&E
                                   Long-term         oversight procedures that may have provided
                                                     some measure of assurance that Ex-Im Bank
                                   Medium-term
                                                     content requirements were met. While those
                                   Short-term        111 long-term transactions comprised
         3,517,
                                                     74 percent, or $26.6 billion, of the total
          93%
                                                     $35.8 billion authorized in FY 2012, Ex-Im
                                                     Bank’s content requirements are not based on
                                                     transaction dollar value or associated with
 Source: OIG summary of Ex-Im Bank’s FY 2012
 transaction data.
                                                     potential loss.

E&E’s Role. E&E is composed of 10 engineers who specialize in areas of Ex-Im Bank’s
portfolio. The division serves as the Bank’s authority on technical and environmental
issues. According to Ex-Im Bank’s January 2013 Loan, Guarantee and Insurance Manual,
E&E’s responsibilities include but are not limited to administering policies related to the
eligibility of exports for Ex-Im Bank financing, including the content policy. In particular,
E&E reviews the technical parameters and issues associated with all long-term applications



                                         AUDIT REPORT OIG-AR-14-01
                                                      7
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


and addresses the feasibility of the transaction or underlying project. E&E’s review and the
technical features of each transaction are described in Engineering Evaluations.

When reviewing transactions, E&E reviews the associated acquisition list, which provides a
brief description, quantity, and estimated invoice cost of the goods and services being
exported. Also, once the transaction is approved by the Board of Directors, E&E
administers the technical matters related to the transaction and monitors the project,
including conducting possible site visits for large, complex structured and project finance
transactions. With access to detailed technical information and as a result of its oversight
procedures, E&E (1) can likely better judge export eligibility based on content and the
reasonableness of exporter certifications of content, and (2) may identify content-related
discrepancies or material changes in content that should be reported.

Processes for Medium- and Short-term Transactions Authorized through Delegated
Authority. In FY 2012, senior Ex-Im Bank officers granted Individual Delegated Authority
(IDA) by the Board of Directors authorized 3,157 transactions (or 83 percent of the
transactions authorized for the year). Qualified commercial lenders granted External
Delegated Authority (EDA) by the Board authorized another 516 transactions (or
14 percent of the transactions authorized for the year). For transactions approved by EDA,
lenders have extensive know-your-customer requirements and collect required forms,
including Exporter’s Certificates, but are not required to validate or verify content
percentages or information. In addition, although Ex-Im Bank conducts annual field
examinations of each lender, including a review of lender procedures, lenders’ verification
or validation of reported content information is not the focus of the reviews. Finally, upon
request, E&E may act in an advisory capacity for both internal and external entities that
approve medium- and short-term transactions. However, consulting E&E is not required
and is performed only on an ad hoc basis. Also, E&E does not keep a record of its advisory
activities or recommendations related to content or link them to a particular transaction.


Other Opportunities to Review Content Exist Yet Workforce Planning May
Limit Ability to Conduct Detailed Verification Procedures
During the audit, we sought to identify those Ex-Im Bank organizational components
independent of the sale and authorization of Ex-Im Bank products to determine which
components have opportunities to review exporter certifications of content. We
determined that, in addition to E&E, the Operations & Data Quality Division (ODQ), Credit
Review and Compliance Division (CRC), and Asset Management Division (AMD) have
opportunities to review exporter certifications of content. However, none of these Ex-Im
Bank components are responsible for verifying exporter certifications of content.
Furthermore, GAO reported that Ex-Im Bank lacks a sound basis for workforce planning
and for determining when additional control activities might be needed to manage
operational risks.

       ODQ. ODQ’s Credit Administration section has a limited but important role in the
review of content-related information. Specifically, ODQ employees cross-check
transaction acquisition lists with invoices before disbursing funds. However, such reviews

                                  AUDIT REPORT OIG-AR-14-01
                                               8
                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


are primarily administrative in nature and focus on discrepancies between the acquisition
lists and invoices, not on verifying or assessing the reasonableness of content information.

        CRC. CRC’s responsibilities include reviewing Ex-Im Bank senior officers’ use of IDA
to ensure such authority is being exercised appropriately. However, such reviews do not
involve verification of exporter certifications of content. CRC is also responsible for
program compliance reviews of medium-term transactions and is working on expanding
those reviews to all Ex-Im Bank transactions. If accomplished, CRC’s enhanced role could
allow the division to review Bank-wide documentation processes as well as examine the
extent to which certain Ex-Im Bank requirements, such as the content policy, are being met.
However, as of September 2013, no official processes or procedures have been established
for the proposed changes to CRC’s role and CRC consists of only three employees.

        AMD. Claims Processing, a section within AMD comprised of six employees,
processes claims against Ex-Im Bank insurance products. We questioned Bank officials
about whether exporter certifications of content are verified during claims processing
activities, and determined that Claims Processing simply confirms that required Exporter’s
Certificates were completed and included in the transaction files. No additional steps are
required to verify or validate the content declared or the amount of financing authorized
based on such declarations. According to Ex-Im Bank officials, the Bank received
220 claims in FY 2013. Claims Processing officials provided anecdotal evidence of a claim
that was denied for the sale and export of a used tractor after a Claims employee cross-
checked the vehicle identification number with the manufacturer, which was not a required
step. The employee discovered the vehicle was not made in the U.S. as had been reported,
which illustrates the potential for false or inaccurate exporter certifications of content and
the opportunities that exist to detect such information.

Workforce Planning. As reported in Ex-Im Bank annual reports for FY 2010 through FY
2012, the Bank’s outstanding financial commitments (or exposure) grew from about
$75 billion to about $107 billion. Over the
same period, Ex-Im Bank’s annual                Figure 3. Allocation of Ex-Im
authorizations increased from about               Bank Workforce (FY 2012)
$24.5 billion to nearly $35.8 billion.
However, Ex-Im Bank’s workforce, as                          24, 6%       Staff with key
measured by full-time equivalents (FTE),                                  roles in
only increased about 8 percent from                                       compliance and
380 to 412 FTEs.13 As shown in Figure 3,                                  fraud
                                                                          prevention
although E&E, ODQ, CRC, and AMD have
limited but key opportunities to ensure                                   Staff with
                                                                          administrative
Ex-Im Bank’s content requirements are met,           382, 94%
                                                                          and operational
they comprised only about 6 percent of                                    roles
Ex-Im Bank’s total employees at the end of
FY 2012.
                                                        Source: OIG analysis of Ex-Im Bank FY 2012 Human
                                                        Capital data.
13According to Ex-Im Bank’s Chief of Human Capital, the Bank had 412 FTEs at the end of FY 2012; however
6 positions were vacant.

                                       AUDIT REPORT OIG-AR-14-01
                                                    9
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


In March 2013, GAO reported that Ex-Im Bank had not developed benchmarks for the level
of business it can properly support with a given level of resources.14 GAO found that Ex-Im
Bank’s workload challenges may continue to grow because of increases in Ex-Im Bank’s
exposure and exposure limit, coupled with resource constraints in the current budgetary
environment. According to GAO, Ex-Im Bank officials plan to update the agency’s 2009-
2012 Human Capital Plan following a forthcoming revision to Ex-Im Bank’s strategic plan.
                                                    Ex-Im Bank’s workforce planning process
   GAO reported that Ex-Im Bank faces potential     involves assessing its current workforce,
   operational risks because the growth in its      anticipating future needs, analyzing gaps, and
   business volume has strained the capacity of its developing strategies to address those gaps.
   workforce. Ex-Im Bank has determined that it     GAO concluded that, in the absence of
   needs more staff, but it has not formally        workload benchmarks, Ex-Im Bank lacks a
   determined the level of business it can properly sound basis for workforce planning and for
   manage.                                          determining when additional control activities
                                                    might be needed to manage operational risks.


Federal Standards for Internal Control Require Reasonable Assurance
GAO “Standards for Internal Control in the Federal Government” state that internal controls
should provide reasonable assurance that the objectives of the agency are being
achieved.15,16 Furthermore, such standards state that internal control activities, such as
verifications, help ensure that management's directives are carried out and should be
effective and efficient in accomplishing the agency's control objectives. However, Ex-Im
Bank does not verify exporter certifications of content for all or even a representative
sample of its transactions. Instead, for the majority of transactions, Ex-Im Bank primarily
relies on exporter self-certifications and criminal penalty warnings to ensure content
requirements are met and to deter exporters from making false statements regarding
content. In addition, as a result of the content policy review required by the Export-Import
Bank Reauthorization Act of 2012, Ex-Im Bank is considering changes to its content policy.
Such changes may include streamlining policies and programs and broadening the use of
Annual Average Content Certification procedures in order to ease the amount of time
required to report on content. However, Ex-Im Bank management did not propose
additional actions to ensure compliance with the content requirements.

Although compliance with Ex-Im Bank’s content requirements is not indicative of a
successful or failed business transaction, it is one of the basic requirements for doing
business with the Bank. Due to the lack of verification efforts and because we identified
concerns regarding exporter certifications of content, we believe Ex-Im Bank has limited
assurance that its content requirements are met and, therefore, that (1) the Bank finances

14“Export-Import Bank: Recent Growth Underscores Need for Continued Improvements in Risk Management”
(GAO-13-303, March 2013).
15   “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).
 As defined by GAO, internal control “. . . comprises the plans, methods, and procedures used to meet
16

missions, goals, and objectives.”


                                        AUDIT REPORT OIG-AR-14-01
                                                     10
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


  only the sale and export of eligible goods and services, and (2) its financing activities
  effectively achieve the agency’s mission of maintaining or increasing U.S. employment.


Recommendations, Management’s Response, and Evaluation of
Management’s Response
  To provide reasonable assurance that Ex-Im Bank’s content requirements are met and as
  Ex-Im Bank updates its Human Capital Plan to address operational risks, the Chairman and
  President of Ex-Im Bank should:

     1. Implement procedures to verify the accuracy of exporter self-certifications of
        content for a representative sample of transactions throughout each fiscal year.

            Management’s Response. Management concurs with the recommendation.
            Ex-Im Bank’s Acting Chief Operating Officer reiterated that the Bank has
            procedures in place to identify content-related discrepancies in long-term
            transactions. Also, this past year the Bank further enhanced these procedures
            with site visits to U.S. exporters that use Bank financing. Ex-Im Bank will share
            the revised procedures with the OIG. The Bank will also develop procedures, in
            FY 2014, to verify exporter self-certifications on content for a representative
            sample of short- and medium-term transactions each fiscal year. The Bank’s
            Enterprise Risk Committee will review and discuss the proposed procedures
            prior to implementation.

            Evaluation of Management’s Response. Management’s proposed actions are
            responsive; therefore, the recommendation is resolved and will be closed upon
            completion and verification of the proposed actions.

  Management’s complete response is reprinted in Appendix F.




                                    AUDIT REPORT OIG-AR-14-01
                                                 11
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Ex-Im Bank Did Not Collect Information Needed to Analyze the
Impact of Changes to Its Content Policy
  In response to exporter concerns, Ex-Im Bank revised its medium- and long-term content
  policy in January 2001. Specifically, the Bank allowed eligible content to be calculated
  based on the aggregate content of all items within a supply contract instead of using an
  item-by-item approach. In exchange for this flexibility, Ex-Im Bank began requesting
  exporters to submit Content Reports detailing the goods and services benefitting from the
  Bank’s financing. It was envisoned that information from such reports would allow Ex-Im
  Bank, Congress, and the Department of Labor to analyze the impact of moving to the
  aggregate approach, develop macro and micro trends in foreign content, and conduct on a
  sample basis case-specific follow-up analyses. However, because Ex-Im Bank made
  submission of Content Reports voluntary and did not establish other appropriate internal
  controls, the Bank has not received any statistiscally valid data to date. Therefore, although
  Ex-Im Bank staff described the ability to analyze the impact of procedural changes based on
  content as “an integral part of the ongoing process of crafting a content policy,” the Bank
  did not collect information needed to analyze the impact of changes to its content policy.
  As a result, Ex-Im Bank failed to achieve one of the key desired outcomes of the 2001
  changes to its content policy, and was unable to comply with its Board of Directors’
  requirements regarding the analysis and reporting of detailed content trend information.


  Voluntary Reporting Resulted in Limited Information for Decision Makers
  As a result of the 2001 changes to Ex-Im Bank’s medium- and long-term content policy,
  Bank staff and the Board of Directors established the need to obtain exporters’ detailed
  content information in the form of Content Reports. Ex-Im Bank staff and the Board of
  Directors expected that such information would be used to produce an Annual Report on
  Content Trends, which the Board directed Bank management to provide to the Board and
  the Bank’s Advisory Committee each year.17 In addition, it was envisioned that information
  from exporter Content Reports would be integral in analyzing the impact of the changes to
  the content policy by showing:

       1. the incidence of sensitive impacts (e.g., how many wholly foreign items did Ex-Im
          Bank support as a result of moving to the aggregate approach to content?);

       2. the origin of the foreign content that Ex-Im Bank supports (e.g., how much from low-
          wage sources such as China versus high-quality places like Germany); and



  17As shown in Appendix C, Ex-Im Bank staff proposed the 2001 changes to the content policy and, in
  exchange, created the need for exporter Content Reports. As shown in Appendix D, Ex-Im Bank’s Board of
  Directors approved the proposed policy changes on January 11, 2001. However, the Board also required
  Bank management to (1) submit to the Board of Directors and the Bank’s Advisory Committee an Annual
  Report on Content Trends, compiled using information from the new exporter Content Reports; and
  (2) review the impact of the policy changes and report back on the results no later than January 1, 2003. As
  shown in Appendix E, management did not provide the required report until October 5, 2007.


                                          AUDIT REPORT OIG-AR-14-01
                                                        12
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


      3. the macro and micro trends of foreign content support (e.g., what is the average
         percent of foreign content and what items does the U.S. foreign source most often?).

However, because Ex-Im Bank made submission voluntary, exporters only submitted
Content Reports for about 13 percent of the over 2,100 medium- and long-term
transactions (excluding aircraft transactions) authorized between 2002 and 2006. As
shown in Figure 4, the highest response rate of completed Content Reports received
between 2002 and 2006 was 19 percent (88 Content Reports received for 466 transactions
authorized in 2005) and the lowest was 11 percent (40 Content Reports received for
374 transactions authorized in 2006). As a result, Ex-Im Bank’s Policy & Planning Group –
responsible for generating the Annual Report on Content Trends – concluded in 2007, “The
very low content report submission rate
                                                    “While there are no penalties envisioned at this
means that there is no ‘statistical’ validity to    time for failure to [submit Content Reports], Ex-Im
any of [the Group’s] findings . . . Ex-Im Bank      Bank is requesting exporters to provide
could have had a very rich database if the          information.”
response rate had been higher” (see Appendix
E). The Group no longer tracks Content                            --Ex-Im Bank Staff “Proposal to Modify
Reports as very few have been received since             the  Procedures   of the Foreign Content Policy”
                                                                                         January 5, 2001
2006.

Reliance on voluntary reporting and what staff themselves described as “very ‘trusting’
procedures” as part of the plan to implement the 2001 content policy changes did not allow
Ex-Im Bank or its stakeholders to make definitive conclusions about the overall impact of
the policy changes.18 Furthermore, present day decision makers do not have access to
what could have been a robust historical record of over 10 years of content-related data to
inform current and future decisions about the content policy and help assess potential
impacts on achieving Ex-Im Bank’s jobs mandate.

After completing the review of its content policy required by the 2012 Export-Import Bank
Reauthorization Act of 2012, Ex-Im Bank reported, “Ex-Im Bank’s Advisory Committee
recommended that the Bank take a measured approach to any change in the content ratio,
and that any changes should rely on empirical evidence. Gathering empirical evidence on
the impact of Ex-Im Bank’s content policy on employment proved to be the biggest
challenge of the content review process.”19




18Page 4 of the “Proposal to Modify the Procedures of the Foreign Content Policy,” January 5, 2001, provided
in Appendix C.
19   “Export-Import Bank of the United States: Content Review 2013,” May 30, 2013.


                                         AUDIT REPORT OIG-AR-14-01
                                                      13
                                                                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


                                                                Figure 4. Results of Voluntary Reporting
                                                                Exporter Content Reports Received (2002 – 2006)



                                                          600                                               88                     100
           Transactions Authorized (excluding aircraft)


                                                                                                                                   90
              Number of Medium- and Long-Term




                                                          500                                   78




                                                                                                                                         Content Reports Received
                                                                                                           19%                     80
                                                          400                     63           15%                                 70
                                                                                                                                   60
                                                                    47           14%
                                                          300                                                            40        50
                                                                                                                                   40
                                                          200      12%
                                                                                                                        11%        30
                                                          100                                                                      20
                                                                    378          435            532         466         374        10
                                                            0                                                                      0
                                                                   2002          2003          2004        2005         2006
                                                                                               Year
                                                                          Total Transactions          Content Reports Completed*

         *Ex-Im Bank considered reports "complete" if exporters provided at least 80 percent of the requested
         information.

         Source: OIG summary of data from the “Review of Ex-Im Bank’s MLT Content Policy Since 2001,”
         dated October 5, 2007, and included in Appendix E.

While content information is provided in Ex-Im Bank’s Annual Competitiveness Report to
Congress, the data does not allow for the type of analyses envisioned as a result of exporter
Content Reports.20 Specifically, the Annual Competiveness Report only provides the export
values and percentages of foreign content for each medium- and long-term transaction, as
reported on the Exporter’s Certificates. Such data supports high-level trend analyses, such
as determining whether foreign content overall or by project type is increasing or
decreasing. But it does not provide details on (1) the specific types and amount of wholly
foreign items supported by Ex-Im Bank, (2) the “causes” for exporters using predominantly
foreign products or services, or (3) the country of origin for Ex-Im Bank-supported foreign
content. Ex-Im Bank deemed such information necessary to analyze the impact of the 2001
policy changes and conduct, on a sample basis, case-specific follow-up evaluations, which
never occurred because the information was not received.


Changes to Content Policy Lacked Appropriate Internal Control
GAO “Standards for Internal Control in the Federal Government” state that effective
internal controls help in managing change to cope with shifting environments and evolving


20The most recent Annual Competitiveness Report to Congress is entitled, “Report to the U.S. Congress on
Export Credit Competition and the Export-Import Bank of the United States, For the Period January 1, 2012
through December 31, 2012,” June 2013.


                                                                                AUDIT REPORT OIG-AR-14-01
                                                                                               14
                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


  demands and priorities. 21 In addition, management should ensure there are adequate
  means of communicating with, and obtaining information from, external stakeholders that
  may have a significant impact on the agency achieving its goals. Finally, program managers
  need operating information to determine whether the agency is achieving its compliance
  requirements.

  In 2001, Ex-Im Bank significantly changed the key policy and requirements that directly
  relate to and support the fulfillment of the agency’s mission to maintain or increase U.S.
  jobs. By making reporting of detailed content information voluntary and placing a high
  reliance on the analysis of that information to assess the success of the policy change,
  Ex-Im Bank did not incorporate strong internal controls in its policy creation and
  implementation efforts. As a result, Ex-Im Bank failed to achieve one of the key desired
  outcomes of the 2001 changes to its content policy, and was unable to comply with its
  Board of Directors’ requirements regarding the analysis and reporting of detailed content
  trend information.

  As a result of the content policy review required by the Export-Import Bank
  Reauthorization Act of 2012, Ex-Im Bank is considering additional changes to its content
  policy. Specifically, the Bank reported that the review process revealed opportunities to
  streamline policies and programs and add clarity to the content policy. In its report to
  Congress and at a subsequent Board meeting held on July 9, 2013, Ex-Im Bank management
  reported plans to consider specific actions to streamline and broaden the use of Annual
  Average Content Certification procedures in order to “ease the amount of time required to
  report on content;” clarify and codify Ex-Im Bank’s services policy; and utilize existing co-
  financing and parallel financing structures to maximize exporters access to market niches
  where jobs reside. The Board of Directors intends to vote on these possible policy changes
  by the end of calendar year 2013.


Recommendations, Management’s Response, and Evaluation of
Management’s Response
  As Ex-Im Bank considers additional changes to its medium- and long-term content policy,
  including changes intended to ease the amount of time required to report on content, the
  Chairman and President of Ex-Im Bank should:

        2. Resolve with the Board of Directors the outstanding requirement to provide to the
           Board and Ex-Im Bank’s Advisory Committee an Annual Report on Content Trends
           based on Content Reports and foreign content review procedures envisioned in
           2001 but never implemented.

                Management’s Response. Management concurs with the recommendation. In
                FY 2014, Ex-Im Bank staff will meet with the Chairman and President along with
                the Board to discuss the 2001 reporting requirements as issued by the Board

  21   “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1, November 1999).


                                          AUDIT REPORT OIG-AR-14-01
                                                       15
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


          and determine what measures should be taken to address the inability to
          produce the required Annual Report on Content Trends in light of the lack of any
          statistically valid submissions of the voluntarily requested Content Report.

          Evaluation of Management’s Response. Management’s proposed actions are
          responsive; therefore, the recommendation is resolved and will be closed upon
          completion and verification of the proposed actions.

   3. Using GAO’s “Standards for Internal Control in the Federal Government” as a guide,
      establish mechanisms to obtain specific, measurable, and reliable data in order to
      analyze the impact of any content-related procedural changes proposed to the
      Board of Directors by the end 2013.

          Management’s Response. Management concurs with the recommendation.
          Bank management is continuing its consideration of: (i) streamlining and
          broadening use of Annual Average Content certification procedures in order to
          ease the amount of time required to report on content, (ii) clarifying and
          codifying Ex-Im Bank’s services policy to more actively engage U.S. services
          exporters, and (iii) utilizing existing co-financing and parallel financing
          structures to maximize exporters access to market niches where jobs reside.
          Bank staff will use GAO’s “Standards for Internal Control in the Federal
          Government” to determine what mechanisms could be implemented to obtain
          specific, measurable, and reliable content data to analyze the impact of any
          procedural changes which are adopted by the Board of Directors in FY 2014.

          Evaluation of Management’s Response. Management’s proposed actions are
          responsive; therefore, the recommendation is resolved and will be closed upon
          completion and verification of the proposed actions.

Management’s complete response is reprinted in Appendix F.




                                 AUDIT REPORT OIG-AR-14-01
                                              16
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                        APPENDIX A


Scope and Methodology
  We performed this audit from November 2012 through November 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit findings. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Our objectives were to evaluate Ex-Im Bank’s implementation of its content policy and
  assess Ex-Im Bank’s procedures for determining the U.S. content and eligible foreign
  content included in each transaction supported by the Bank. To address our objectives, we
  obtained and reviewed information necessary to understand the purpose of Ex-Im Bank’s
  content policy, key changes to the policy, and current procedures for implementing the
  policy. We reviewed applicable laws and Ex-Im Bank policies and procedures; Ex-Im
  Bank’s annual competitiveness reports; and applicable reports of external entities, such as
  GAO. Additionally, we reviewed information maintained on Ex-Im Bank’s intranet, minutes
  of Board of Directors’ meetings in which key decisions related to the content policy were
  made, and various Ex-Im Bank Advisory Committee memoranda related to the content
  policy. We also interviewed responsible officials from Ex-Im Bank’s Small Business Group,
  Policy & Planning Group, Export Finance Group, Credit Management Group, and Office of
  the Chief Financial Officer, and evaluated:

          Ex-Im Bank’s response to a Congressionally mandated review of its content policy;22

          various documents and processes used to obtain and assess exporter
           representations of content for each type of Ex-Im Bank product;

          Ex-Im Bank’s procedures for processing applications for Bank financing, including
           obtaining Exporter’s Certificates and other representations of content;

          prior OIG semiannual reports and information provided by the OIG Office of
           Investigations regarding instances of content-related fraud; and

          information received from the Office of General Counsel regarding content-related
           prosecutions and convictions.



  22Section 15 of the Export-Import Bank Reauthorization Act of 2012 [Public Law 112-122, 126 Stat. 350
  (2012)] required the Bank to review its domestic content policy for medium- and long-term transactions and
  report to Congress the results of its review by May 30, 2013. Ex-Im Bank conducted the review and, on
  May 30, 2013, released the results entitled, “Export-Import Bank of the United States: Content Review 2013.”


                                          AUDIT REPORT OIG-AR-14-01
                                                       17
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Review of Internal Controls
  We examined Ex-Im Bank’s internal controls over the implementation of its content policy
  using GAO’s “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-
  21.3.1, November 1999). Our audit focused on the Ex-Im Bank divisions that may have an
  opportunity to verify exporter certifications of content. We interviewed key Ex-Im Bank
  personnel and examined documents used to obtain exporter certifications of content. We
  also assessed Ex-Im Bank’s internal controls for (1) ensuring its content requirements are
  met and, therefore, the Bank supports only eligible exports and achieves its jobs mandate;
  and (2) implementing the 2001 changes to its content policy. We found internal control
  deficiencies as discussed in this report. Our recommendations, if implemented, should
  correct the weaknesses we identified.


Federal Laws, Regulations, Policies, and Guidance
  We reviewed the following during the course of our work:

        Export-Import Bank Act of 1945 (12 U.S.C. 635), as amended.

        Government Performance and Results Act, Public Law 103-62 (1993) and
         Government Performance and Results Act Modernization Act of 2010.

        GAO, “Standards for Internal Control in the Federal Government” (GAO/AIMD-00-
         21.3.1, November 1999).

        “Report to the U.S. Congress on Export Credit Competition and the Export-Import
         Bank of the United States, For the Period January 1, 2012 through December 31,
         2012,” June 2013.

        “Export-Import Bank of the United States: Content Review 2013,” May 30, 2013.

        Ex-Im Bank Loan, Guarantee and Insurance Manual, January 2013.

        Operations and Data Quality Division Manual, January 2013.

        Ex-Im Bank Policy & Planning Group’s review of medium- and long-term content
         policy since 2001, October 5, 2007.

        Ex-Im Bank Board of Directors official content policy statements from April 16,
         1987, and January 11, 2001.

        Ex-Im Bank Policy & Planning Group’s Foreign Content Report, November 13, 1989.

        Ex-Im Bank Policy & Planning Group’s Foreign Content Review, March 19, 1987.




                                   AUDIT REPORT OIG-AR-14-01
                                                18
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Prior Coverage
  During the last 5 years, the Ex-Im Bank OIG and GAO issued four reports of particular
  relevance to the subject of this report. Unrestricted reports can be accessed over the
  Internet at http://www.exim.gov/oig/reports/audits-and-evaluations.cfm (Ex-Im Bank
  OIG) and http://www.gao.gov (GAO).

  Ex-Im Bank OIG:

        “Audit of Export-Import Bank Short Term Insurance Program” (OIG-AR-12-05,
         September 28, 2012).

  GAO:

        “Export-Import Bank: More Detailed Information about Its Jobs Calculation
         Methodology Could Improve Transparency” (GAO-13-446, May 2013).

        “Export-Import Bank: Recent Growth Underscores Need for Continued
         Improvements in Risk Management” (GAO-13-303, March 2013).

        “U.S. Export-Import Bank: Actions Needed to Promote Competitiveness and
         International Cooperation” (GAO-12-294, February 7, 2012).




                                   AUDIT REPORT OIG-AR-14-01
                                                19
                                 EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


                                                                                                 APPENDIX C
                                                                                                APPENDIX B


Ex-Im Bank’s Short-, Medium-, and Long-term Content Policy and
Examples of Financing Calculations Based on Content
  To be eligible for Ex-Im Bank support, goods and services must be shipped from the U.S. to
  a foreign buyer. In addition, Ex-Im Bank's content policy limits the amount of Bank
  financing depending on the term of the financing requested and, for short-term
  transactions, whether the exporter is a small business.

  Short-term Content Policy. Ex-Im Bank’s content policy for short-term transactions
  states that eligible goods and services must include more than 50 percent U.S. content.
  However, for short-term transactions involving small businesses, either each product
  itemized on an export sales invoice must be more than 50 percent domestic based on
  production costs (both direct and indirect) exclusive of profit, or the aggregate content of
  all products on the invoice must be more than 50 percent domestic. If the U.S. content of
  any product or aggregate U.S. content of all products on an invoice is 50 percent or less,
  only the U.S. content is eligible.

  In contrast, Ex-Im Bank’s eligibility criteria for short-term transactions involving non-small
  businesses states that each product itemized on an export sales invoice must be produced
  or manufactured in the U.S., and each product must have more than 50 percent U.S. content
  based on direct production costs only, exclusive of any profit.

  The following example illustrates the calculation of Ex-Im Bank’s short-term financing
  depending on whether the exporter is a small business:

                       Labor, Materials, and       Total            Indirect Costs
                         Direct Overhead          Labor,          (some examples)                              Sales
                                                                                        Total
                                    Foreign      Materials,                                         All        Price
                         U.S.                                                            U.S.
                                     Labor          and            U.S.       Misc                 Costs       (incl
  Item     Made in    Labor and                                                         Costs
                                      and         Direct         Marketing   Foreign                          profit)
                      Materials                  Overhead
                                    Materials
  Item 1     U.S.       $6,000       $5,000       $11,000         $3,000      $500      $9,000    $14,500     $17,400
  Item 2     U.S.       $2,000       $8,000       $10,000         $1,000      $500      $3,000    $11,500     $13,800
  Item 3   Mexico      $10,000       $3,000       $13,000         $6,000     $1,000    $16,000    $20,000     $24,000
  Source: Ex-Im Bank short-term content policy. Available at: http://www.exim.gov/generalbankpolicies/content/short-
  term-content-policy.cfm. Accessed on September 6, 2013.

  The eligibility criteria, calculation of eligibility, and the level of Ex-Im Bank support vary for
  non-small and small business exporters involved in this transaction as follows:




                                              AUDIT REPORT OIG-AR-14-01
                                                            20
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Item 1, Non-Small Business: This item is eligible for 100 percent of the sales price
($17,400) because (i) eligible U.S. content ($6,000/$11,000 = 55 percent) is more than
50 percent; and (ii) the item was produced in the U.S.

Item 1, Small Business: This item is eligible for 100 percent of the sales price ($17,400)
because eligible U.S. content ($9,000/$14,500 = 62 percent) is more than 50 percent.

Item 2, Non-Small Business: This item is ineligible for Ex-Im Bank support because eligible
U.S. content ($2,000/$10,000 = 20 percent) is less than 50 percent.

Item 2, Small Business: Only the U.S. costs ($3,000) are eligible for Ex-Im Bank support
because eligible U.S. content ($3,000/$11,500 = 26 percent) is less than 50 percent.

Item 3, Non-Small Business: Even though eligible U.S. content ($10,000/$13,000 =
77 percent) is more than 50 percent, the item is ineligible for Ex-Im Bank support because
the core product was produced outside the U.S.

Item 3, Small Business: This item is eligible for 100 percent of the sales price ($24,000)
because eligible U.S. content ($16,000/$20,000 = 80 percent) is more than 50 percent.

The total amount of short-term Ex-Im Bank financing that could be provided to a non-small
business exporter given the transaction described above would be $17,400. Given the
same set of facts, Ex-Im Bank could provide a small business exporter involved in this
transaction a total of $44,400 in short-term financing.

Medium- and Long-term Content Policy. For all medium- and long-term transactions,
the total level of Ex-Im Bank support for an exporter’s supply contract will be the lesser of:

     1. 85 percent of the value of all eligible goods and services in the U.S. supply contract,
        or

     2. 100 percent of the U.S. content in all eligible goods and services in the U.S. supply
        contract.23

In addition, the content percentage is calculated based on the total price of the exported
goods and services (i.e., total production costs plus profit). Ex-Im Bank support for
individual disbursements or shipments is based on the aggregate U.S. and foreign content
percentages represented in an up-front Exporter's Certificate, irrespective of the relative
amounts of U.S. and foreign content in any specific disbursement or shipment request.
Goods transshipped from another country through the U.S. (including entry through a
bonded warehouse) are excluded goods and are not considered eligible foreign content.
Finally, Ex-Im Bank must be notified of material changes in the amount of foreign content
from the up-front certification so that future disbursements can be adjusted and only the
value of the U.S. content is supported by Ex-Im Bank.

23Eligible goods and services in the U.S. supply contract are those (1) produced or originated entirely in the
U.S., (2) containing U.S.- or foreign-originated components, and (3) produced or originated entirely in a
foreign country other than the buyer’s country.

                                         AUDIT REPORT OIG-AR-14-01
                                                       21
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


The following example of a project with a $10.3 million U.S. supply contract, of which
$8.0 million is U.S. content and $2.3 million is foreign content, illustrates the calculation of
Ex-Im Bank’s medium- and long-term financing:

Goods and Services                                           Foreign Content     Is Foreign Content Eligible for
 in the U.S. Supply     U.S. Content     Foreign Content    Shipped from the        Inclusion in Ex-Im Bank's
      Contract                                                    U.S.?                Financing Package
1. Computers             $300,000           $800,000               Yes                         Yes
2. Transmitters          $5,000,000         $300,000               Yes                         Yes
3. Antennas
a. U.S. produced         $100,000              -0-                N/A                         N/A
                                                                                 No, because the good was not
b. Foreign produced         -0-             $300,000               No
                                                                                     shipped from the U.S.
4. Microwaves            $1,000,000         $800,000               Yes                         Yes
5. Cameras               $1,600,000            -0-                N/A                          N/A
6. Air Freight              -0-             $100,000              N/A                          Yes
Total:                   $8,000,000        $2,300,000         (of which $300,000 is ineligible foreign content)
Source: Ex-Im Bank medium and long-term policy. Available at:
http://www.exim.gov/generalbankpolicies/content/medium-and-long-term-content-policy.cfm. Accessed on
September 6, 2013.

Of the foreign content, $2.0 million is eligible and the remaining $0.3 million is ineligible
because it was not shipped from the U.S. By adding the U.S. content ($8.0 million) and the
eligible foreign content ($2.0 million), the total eligible U.S. supply contract is $10.0 million,
and Ex-Im Bank can guarantee or insure up to $8.0 million in medium- or long-term
financing for these exports (the lesser of 85 percent of the value of all eligible goods and
services, or 100 percent of the U.S. content).




                                        AUDIT REPORT OIG-AR-14-01
                                                       22
                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                      APPENDIX C


2001 Proposal to Modify Ex-Im Bank’s Content Policy




                             AUDIT REPORT OIG-AR-14-01
                                          23
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       24
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       25
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       26
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       27
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       28
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       29
                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                      APPENDIX D


Board of Directors’ Approval of 2001 Proposal to Modify Ex-Im
Bank’s Content Policy




                             AUDIT REPORT OIG-AR-14-01
                                          30
                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                      APPENDIX E


Review of the Effects of 2001 Changes to Ex-Im Bank’s Content
Policy




                             AUDIT REPORT OIG-AR-14-01
                                          31
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       32
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       33
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       34
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       35
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       36
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       37
               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



                                                                  APPENDIX F

Management Comments




                         AUDIT REPORT OIG-AR-14-01
                                      38
EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




          AUDIT REPORT OIG-AR-14-01
                       39
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Acknowledgements
  Key contributors to this report were Arturo Cornejo, Audit Project Manager; Julie Wong,
  Lead Auditor; and John Onyeaku, Auditor.


To Report Fraud, Waste, or Abuse, Please Contact:
  E-mail:              IGhotline@exim.gov

  Telephone:           1-888-OIG-EXIM (1-888-644-3946)

  Fax:                 (202) 565-3988

  Address:             Office of Inspector General
                       Export-Import Bank of the United States
                       811 Vermont Avenue, NW
                       Suite 138
                       Washington, DC 20571


Comments and Suggestions
  If you wish to comment on the quality or usefulness of this report or suggest ideas for
  future audits, please contact Rebecca Sharek, Assistant Inspector General for Audits, at
  rebecca.sharek@exim.gov or call (202) 565-3908. Comments, suggestions, and requests
  can also be mailed to the attention of the Assistant Inspector General for Audits at the
  address listed above.




                                   AUDIT REPORT OIG-AR-14-01
                                                40
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
